                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                        EXPORT-IMPORT BANK
                                                         of the UNITED STATES




   AUDIT OF INFORMATION
  TECHNOLOGY SUPPORT FOR
EXPORT-IMPORT BANK’S MISSION



                                                                 January 24, 2012
                                                                    OIG-AR-12-04
Office of Inspector General              Export-Import Bank
                                         of the United States


January 24, 2012


MEMORANDUM

TO: 	                Alice Albright
                     Executive Vice President and Chief Operating Officer

                     Fernanda Young
                     Chief Information Officer

FROM:                Christine Staley
                     Senior Auditor


SUBJECT:        Audit of Information Technology Support for Export-Import Bank’s Mission

This memorandum transmits Audit Report OIG-AR-12-04, Information Technology Support for Export-
Import Bank’s Mission. The Office of Inspector General engaged BDO USA, LLP to perform the audit
under a contract managed by this office. The objective of this audit was to determine whether Ex-Im
Bank is minimizing the cost and maximizing the usefulness of its key IT systems to meet Ex-Im Bank’s
mission.

The audit found that, while the business operations at Ex-Im Bank are functioning and transactions are
being processed, the IT systems are not supporting these operations efficiently and effectively. Overall,
Ex-Im Bank IT systems and databases do not always capture and manage all necessary data for
business needs and antiquated IT applications cause workflow inefficiencies. In addition, because not all
applications for Ex-Im products are electronically accepted and/or processed in a centralized database,
and because Ex-Im Bank’s IT systems are not integrated, certain key data has to be manually entered
into different Ex-Im Bank systems and transaction records hard copied to complete workflow processing
task(s). In sum, the present IT application infrastructure makes it difficult for Ex-Im Bank to provide timely
service, effectively manage and track its programs, measure progress, and increase productivity.
Furthermore, Ex-Im Bank does not have practices to effectively manage its strategic planning, IT
spending, and the System Development Life Cycle and Program Change Management process.

We made eleven recommendations to address these findings. Management concurred with the findings
and recommendations.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If you have any
questions, please call me at (202) 565-3996.


cc:
Fred P. Hochberg, Chairman and President
Audit Committee
Michael Cushing, Senior Vice President, Resource Management
John McAdams, Senior Vice President, Export Finance
John Lowry, Director, Information Technology Security and System Assurance
Robert Fuller, Director, Information Technology Systems Engineering
David Sena, Acting Senior Vice President, Chief Financial Officer and Audit Liaison
Michele Kuester, Vice President, Operations and Data Quality
Robert Morin, Vice President, Transportation Portfolio Management
Jeffrey Abramson, Vice President, Trade Finance
Richard Brackley, Managing Director, Claims and Recoveries Section
Patricia Wolf, Supervisor, Financial Reporting
                                          Tel: 212-885-8000         100 Park Avenue
                                          Fax: 212-697-1299         New York, NY 10017
                                          www.bdo.com




January 20, 2012


Christine Staley
Senior Auditor
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, N.W.
Washington, D.C. 20571


Subject: Report on Information Technology Support for Export-Import Bank’s Mission.


Dear Ms. Staley:

This letter submits our final report representing the results of our audit of how
information technology (“IT”) supports Export-Import Bank’s mission. The objective of
this audit was to evaluate whether the IT systems at the Export-Import Bank of the
United States (“Ex-Im Bank” or “Ex-Im”) are able to effectively and efficiently support
the Ex-Im Bank mission.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards (“GAGAS”). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

This audit did not constitute an audit of financial statements in accordance with
GAGAS. BDO was not engaged to, and did not render an opinion on Ex-Im Bank’s
financial statements or internal controls over financial reporting or over financial
management systems. The information included in this report was obtained from Ex-Im
Bank on or before September 20, 2011. We have no obligations to update our report or
to revise the information contained therein to reflect events and transactions occurring
subsequent to September 20, 2011.



Sincerely,
                                                              AUDIT OF INFORMATION TECHNOLOGY
                                                       SUPPORT FOR EXPORT-IMPORT BANK’S MISSION



                                              TABLE OF CONTENTS


EXECUTIVE SUMMARY ...................................................................................................... i
 
BACKGROUND ...................................................................................................................1
 
OBJECTIVE ......................................................................................................................... 3
 
SCOPE AND METHODOLOGY ........................................................................................... 3
 
AUDIT RESULTS................................................................................................................. 5
 
A – BUSINESS OPERATIONS ................................................................................................... 6
 
     A.1 Key IT Applications are Inefficient and Incapable of Capturing Certain Data, 

     Automating Workflow Procedures and Integrating Data. ............................................... 7
 
     Recommendations ......................................................................................................... 8


     A.2 Participant Information Is Not Always Timely and Completely Captured.............. 11
 
     Recommendations ....................................................................................................... 12


B – INFORMATION TECHNOLOGY........................................................................................... 15
 
     B.1 Strategic Planning Process Does Not Address Current and Future Needs.......... 15
 
     Recommendation ......................................................................................................... 16


     B.2 IT Budget and Spending Practices Do Not Provide Adequate Data for Investment

     Oversight...................................................................................................................... 17
 
     Recommendations ....................................................................................................... 19


     B.3 Ex-Im’s Systems Development Life Cycle and Program Change Management 

     Processes Are Not Consistently Followed. .................................................................. 21
 
     Recommendation ......................................................................................................... 22


APPENDIX A – BUSINESS OPERATION FLOWCHARTS ............................................................. 23
 
APPENDIX B – ACRONYMS.................................................................................................... 28 

APPENDIX C – MANAGEMENT’S RESPONSE ........................................................................... 29
 
                                                 AUDIT OF INFORMATION TECHNOLOGY
                                          SUPPORT FOR EXPORT-IMPORT BANK’S MISSION


EXECUTIVE SUMMARY
BDO USA, LLP (“BDO”) conducted an audit of the information technology (“IT”) support for
Export-Import Bank of the United States (“Ex-Im Bank” or “Ex-Im”) mission. This audit was
performed under Assignment # EXIM-11-P-0043 issued by the Office of Inspector General
(“OIG”).
In conjunction with this evaluation, the objective of this audit was to determine whether Ex-Im
Bank is minimizing the cost and maximizing the usefulness of its key IT systems to meet Ex-Im
Bank’s mission. The specific audit objectives were to:
   1. 	 Identify key data and procedures used by Ex-Im Bank to process and monitor its loan,
        guarantee, and insurance products, as well as loan default and guarantee and insurance
        claims.
   2. 	 Identify interoperability of Ex-Im Bank’s four critical IT systems: Ex-Im General Support
        System, the Financial and Administrative System, EXIM Online, and the Oracle General
        Support System.
   3. 	 Determine whether Ex-Im Bank’s IT systems provide useful information to effectively and
        efficiently process and monitor activity.
   4. 	Identify effectiveness of IT applications and systems as they relate to Ex-Im Bank’s
        operating mission.
   5. 	Identify annual expenditures on IT systems and determine the amounts applied to
        maintain and improve its systems.

Our audit work revealed that, while the business operations at Ex-Im Bank are functioning and
transactions are being processed, the IT systems are not supporting these operations efficiently
and effectively. Overall, Ex-Im Bank IT systems and databases do not always capture and
manage all necessary data for business needs and antiquated IT applications cause workflow
inefficiencies. For instance, Ex-Im Bank’s Application Processing System, which is in the
Financial and Administrative System and was developed decades ago, cannot handle certain
underwriting data necessary for a transaction or capture necessary information related to certain
transportation deals. In addition, because not all applications for Ex-Im products are
electronically accepted and/or processed in a centralized database, and because Ex-Im Bank’s
IT systems are not integrated, certain key data has to be manually entered into different Ex-Im
Bank systems and transaction records hard copied to complete workflow processing task(s).
Because of these issues, data integrity is at risk, resources are not efficiently used, and data
gathering and reporting are burdensome and time consuming. In sum, the present IT
application infrastructure makes it difficult for Ex-Im Bank to provide timely service, effectively
manage and track its programs, measure progress, and increase productivity.

Furthermore, Ex-Im Bank does not have practices to effectively manage its strategic planning,
IT spending, and the System Development Life Cycle ("SDLC”) and Program Change
Management (“PCM”) process. The audit found that: the Office of the Chief Financial Officer
does not have sufficient detailed information on the amount of IT spending versus planned and
the specific purpose for each expenditure; the Strategic Plan was not formally approved and is
not sufficiently comprehensive to coordinate and manage initiatives; and the SDLC and PCM
processes are not consistently followed. Failure to have strong internal controls in these areas
prevents management from determining and monitoring the best use of funds to improve IT
support of Ex-Im Bank’s mission.




                                          Page i
                                               AUDIT OF INFORMATION TECHNOLOGY
                                        SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Even though all findings have some relation to IT systems, they are all not the direct
responsibility of the IT department due to their pervasive nature. While we have identified
eleven specific recommendations for the findings included in the above areas, our overall
recommendation is for the business operations and IT teams to each designate a champion(s)
that understands their respective needs and technical capabilities and work together to develop
an integrated IT application systems to ensure that business is conducted effectively and
efficiently to support Ex-Im Bank’s mission.




                                         Page ii
                                                      AUDIT OF INFORMATION TECHNOLOGY
                                               SUPPORT FOR EXPORT-IMPORT BANK’S MISSION


BACKGROUND
Export Import Bank of the United States (“Ex-Im Bank” or “Ex-Im”) is an independent executive
agency and a wholly owned United States (“U.S.”) government corporation. Ex-Im Bank is the
official export credit agency of the U.S. Its mission is to support U.S. exports by providing
export financing through its loan, guarantee, and insurance programs in cases (1) where the
private sector is unable or unwilling to provide financing, or (2) when such support is necessary
to level the playing field due to financing provided by foreign governments to exporters in
competition for U.S. export sales. By facilitating the financing of U.S. exports, Ex-Im Bank helps
companies create and maintain U.S. jobs. Ex-Im Bank has provided financing support for
export sales in over 150 markets throughout the world. Ex-Im Bank’s charter requires
reasonable assurance of repayment for the transactions it authorizes and the Ex-Im Bank
closely monitors credit and other risks in its portfolio.

Ex-Im Bank’s Charter requires Ex-Im Bank to develop and “implement an electronic system
designed to track all pending transactions” and to establish and maintain a website through
which Bank products may be applied for and to obtain information regarding the status of
applications.1    As described below, Ex-Im Bank’s uses four mission critical information
technology (“IT”) systems to conduct business operations.

     I. 	      Ex-Im General Support System (“GSS”) – GSS is the underlying network which all Ex-
               Im employees utilize when they connect to the shared drives and also browse the Ex-
               Im network to access various applications and networked resources.
     II. 	     Ex-Im Online (“EOL”) – EOL is a web-based infrastructure that allows users
               (exporters, importers) to log into Ex-Im’s system to submit information electronically
               and check on export/import records. EOL is used to capture the initial application
               data, track documents, and route the workflow. It was originally only intended to meet
               the needs of the insurance business for short-term products. As of the audit, the EOL
               system supports the following Ex-Im products: short-term single-buyer insurance;
               medium-term insurance; short-term multi-buyer insurance; loan guarantees (up to
               $10MM); financial institution buyer credit insurance; foreign dealer insurance; letter of
               credit insurance for banks; and express insurance. All other applications for Ex-Im
               products must be completed by filling out applications forms and submitting them by
               email, fax, or mail.
     III. 	    Financial and Administrative System (“F&AS”) — F&AS is a distributed based
               environment that hosts five financial-related minor applications. The minor
               applications are:

                    • 	 Application Processing System (“APS”) – APS processes loans from the
                        initial customer contact to application receipt, underwriting evaluation, and
                        when applicable, underwriting approval.

                    • 	 Standard General Ledger (“LG/A”) – LG/A is Ex-Im’s accounting system and
                        standard general ledger. The application also processes loans, guarantees,
                        and insurance policies from authorization through final disbursement.


1
    12 U.S.C. §§ 635(b)(1)(J) and (2)(h).



                                               Page 1
                                                           AUDIT OF INFORMATION TECHNOLOGY
                                                    SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

                  • 	 Claims and Recovered Debt Servicing System (“CARDS”) – CARDS is used
                      to process claims from receipt to closure. This includes the evaluation of the
                      submitted claim for liability, the issuance of payments for valid claims and the
                      collection of money from third parties. CARDS encompass five subsystems:
                      Claims Entry, Claim Assignment and Evaluation, Claim Payment, Recovery
                      Management, and Recovery and Expenses Allocation.

                  • 	 The Rescheduled Debt Servicing System (“RLOANS”) – RLOANS is pertinent
                      for the restructuring and processing of reschedule debt. In the event that a
                      debtor country cannot repay a debt (e.g., in a situation where the debtor
                      country cannot convert local currency to dollars due to the exchange rate),
                      the Paris Club2 meets to determine a new schedule for repayment through
                      restructuring of public and private sector debts. RLOANS processes the
                      restructured loan details, standardizes billing, and facilitates the payments of
                      recovered amounts.

                  • 	 The Administrative Accounting Activity (“AAA”) – AAA processes all
                      administrative expense transactions, including budget fund control for each
                      appropriation. AAA processes purchase orders, invoices, travel (including
                      sponsored travel), and employee debt. The application also reports on
                      administrative expense activity and stores contact data for vendors who
                      receive payments from Ex-Im Bank.

    IV. 	     Oracle General Support System (“Oracle GSS”) – Oracle GSS is an Oracle database
              management system which includes the tools Enterprise Manager, Oracle Business
              Intelligence Suite, Application Express, and Oracle Enterprise Performance
              Management System (“Hyperion”). The purpose of this environment is to perform
              basic data management capabilities to support Ex-Im applications and data
              warehouse.

To support its mission, the Bank’s network infrastructure consists largely of networking devices
with various servers running different operating system platforms. The networks are protected
from external threats by a range of IT security devices including firewalls, intrusion detection
and prevention, antivirus, and spam filtering systems.

The IT environment noted above was evaluated in support of the following significant business
operations processes and work streams:

           Medium-Term and Long-Term Loan and Guarantee Applications; 

           Working Capital Guarantees;

           Medium-Term Insurance and Guarantees;

           Letter of Interest Applications;

           Application, Participant 3, and Policy Reviews via EOL;

           Single-and Multi-Buyer Insurance;

           Medium-Term Insurance and Guarantees / Long-Term Transactions;


2
   The Paris Club is an informal group of financial officials from 19 of the world's biggest economies, which provides
financial services such as funding, debt restructuring, debt relief, and debt cancellation to indebted countries and their
creditors 
3
  A “Participant” is anyone involved in the transaction such as the applicant, lender, exporter, supplier, guarantor, etc.



                                                    Page 2
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

      Participant Verification;

      Transportation Billing and Underwriting; and 

      Claims. 



OBJECTIVE
The objective of this audit was to determine whether Ex-Im Bank is minimizing the cost and
maximizing the usefulness of its key IT systems to meet Ex-Im Bank’s mission. The specific
audit objectives were to:

   	 Identify key data and procedures used by Ex-Im Bank to process and monitor its loan,
      guarantee, and insurance products, as well as loan default and guarantee and insurance
      claims.
    Identify interoperability of Ex-Im Bank’s four critical IT systems: GSS, F&AS, EOL, and
      Oracle GSS.
    Determine whether Ex-Im Bank’s IT systems provide useful information to effectively and
      efficiently process and monitor activity.
    Identify effectiveness of IT applications and systems as they relate to Ex-Im Bank’s
      operating mission.
    Identify annual expenditures on IT systems and determine the amounts applied to
      maintain and improve its systems.


SCOPE AND METHODOLOGY
The scope of the audit focused on whether Ex-Im Bank IT systems are able to effectively and
efficiently support Ex-Im Bank’s mission.

Our audit procedures to support the specific audit objectives were performed with various
subject matter experts within the business operations and IT teams. Testing procedures
included a mix of inquiries of appropriate personnel, inspection of relevant documentation, and
observation of the operations. In addition, where necessary, samples were selected to validate
the effectiveness of selected controls and procedures. Samples sizes utilized were aligned with
those required by Generally Accepted Government Auditing Standards (“GAGAS”). A listing of
acronyms used in this report is included in Appendix B.

Specifically, we met with subject matter experts from the IT System Engineering, IT Security &
System Assurance, and Information Management & Technology in the Office of the Chief
Information Officer (“OCIO”), including the Chief Information Officer (“CIO”). We also met with
subject matter experts in Operations and Data Quality, Trade Finance, Transportation Portfolio
Management, Export Finance, Claims and Recoveries, Credit Review and Compliance Division,
Office of the Chief Financial Officer, and the Office of General Counsel.




                                         Page 3
                                              AUDIT OF INFORMATION TECHNOLOGY
                                       SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

As a part of our audit procedures, we documented the transaction flow of the below selected
business operations processes and work streams. These flow charts are included in Appendix
A.

      Short-Term, Single-Buyer, Multi-Buyer, Medium-Term Insurance and Medium-Term
       Guarantees;
      Medium-Term, Long-Term and Working Capital Guarantees, and Long-Term Insurance;
      Transportation Underwriting and Transportation Billing; and
      Claims Processing.

We analyzed data and documentation obtained from Ex-Im Bank subject matter experts, as well
as other information available, such as Ex-Im Bank policies and procedures and other
authoritative guidance.

We conducted our audit procedures from April 11, 2011 through September 20, 2011.

We conducted this performance audit in accordance with GAGAS. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusion based
on our audit objectives.




                                       Page 4
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

AUDIT RESULTS
Our audit work revealed that, while the business operations at Ex-Im Bank are functioning and
transactions are being processed, the IT systems are not supporting these operations efficiently
and effectively. Overall, Ex-Im Bank IT systems and databases do not always capture and
manage all necessary data for business needs and antiquated IT applications cause workflow
inefficiencies. For instance, Ex-Im Bank’s APS, which is in the F&AS and was developed
decades ago, cannot handle certain underwriting data necessary for a transaction or capture
necessary information related to certain transportation deals. In addition, because not all
applications for Ex-Im products are electronically accepted and/or processed in a centralized
database and because Ex-Im Bank’s IT systems are not integrated, certain key data has to be
manually entered into other Ex-Im Bank systems and transaction records hard copied to
complete the respective department’s processing task(s). Because of these issues data
integrity is at risk, resources are not efficiently used, and data gathering and reporting are
burdensome and time consuming. In sum, the present IT systems makes it difficult for Ex-Im
Bank to provide timely service, effectively manage and track its programs, measure progress,
and increase productivity.

Furthermore, Ex-Im Bank does not have practices to effectively manage its strategic planning,
IT spending, and the System Development Life Cycle (“SDLC”) and Program Change
Management (“PCM”). The audit found that: the Office of the Chief Financial Officer does not
have sufficient detailed information on the amount of IT spending versus plans and the specific
purpose for each expenditure; the Strategic Plan was not formally approved and is not
sufficiently comprehensive to coordinate and manage initiatives; and the SDLC and PCM
processes are not consistently followed. Failure to have strong controls in these areas prevents
management from determining and monitoring the best use of funds to improve IT support of
Ex-Im Bank’s mission.

Even though all findings we identified have some relation to IT systems, they are all not the
direct responsibility of the IT department due to their pervasive nature. The identified findings
are provided below and further discussion on each finding is presented in the remaining portion
of this report.

A-   Business Operations
     A.1 	 Key IT Applications are Inefficient and Incapable of Capturing Certain Data,
             Automating Workflow Procedures and Integrating Data.
     A.2     Participant Information Is Not Always Timely and Completely Captured.
B-   Information Technology
     B.1 	   Strategic Planning Process Does Not Address Current and Future Needs.
     B.2 	   IT Budget and Spending Practices Do Not Provide Adequate Data for Investment
             Oversight.
     B.3 	 Ex-Im’s Systems Development Life Cycle and Program Change Management
             Processes Are Not Consistently Followed.




                                         Page 5
                                                   AUDIT OF INFORMATION TECHNOLOGY
                                            SUPPORT FOR EXPORT-IMPORT BANK’S MISSION


A – BUSINESS OPERATIONS

Ex-Im Bank’s IT systems do not fully support its operations and reporting function because IT
systems are not integrated and participant data is not effectively and efficiently processed. Data
is manually keyed into multiple systems, working files are duplicated by offices for their
respective processing, and manual tasks are performed to complete business processes. Also,
participant data, which is data related to anyone involved in a transaction such as the applicant,
lender, exporter, supplier, guarantor, etc., is not timely and fully captured. While business
operations at Ex-Im Bank are functioning and transactions are being processed, Ex-Im Bank’s
current IT systems inhibit Ex-Im’s ability to provide timely service, effectively manage and track
its programs, measure progress, identify transaction patterns, and increase productivity.
Further details on workflow and participant data are presented below.

Ex-Im Bank’s Charter requires Ex-Im Bank to develop and “implement an electronic system
designed to track all pending transactions” and to establish and maintain a website through
which Bank products may be applied for and to obtain information regarding the status of
applications.4 Office of Management and Budget (“OMB”) Circular A-130, Management of
Federal Information Resources, Appendix III, Security of Federal Automated Information
Resources (Revised, Transmittal Memorandum No. 4, 11/28/2000), states: “Agencies must
implement the Enterprise Architecture consistent with following principles:

       	 Develop information systems that facilitate interoperability, application portability, and
          scalability of electronic applications across networks of heterogeneous hardware,
          software, and telecommunications platforms;”

       	 (iii) Applications -- Agencies must identify, define, and organize the activities that
          capture, manipulate, and manage the business information to support business
          processes.”

While Ex-Im Bank is not required to follow OMB’s Circular A-123, Management’s Responsibility
for Internal Control, this circular provides guidance on sound management practices for
achieving Ex-Im Bank’s mission. Circular A-123 states “Management controls are the
organization, policies, and procedures used to reasonably ensure that (i) programs achieve their
intended results; (ii) resources are used consistent with agency mission; (iii) programs and
resources are protected from waste, fraud, and mismanagement; (iv) laws and regulations are
followed; and (v) reliable and timely information is obtained, maintained, reported and used for
decision making.”

Circular A-123 directs agencies to “ … take systematic and proactive measures to (i) develop
and implement appropriate, cost-effective management controls for results-oriented
management; (ii) assess the adequacy of management controls in Federal programs and
operations; (iii) identify needed improvements; (iv) take corresponding corrective action; and (v)
report annually on management controls.”




4
    12 U.S.C. §§ 635(b)(1)(J) and (2)(h).

                                            Page 6
                                                         AUDIT OF INFORMATION TECHNOLOGY
                                                  SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

A.1 Key IT Applications are Inefficient and Incapable of Capturing Certain
Data, Automating Workflow Procedures and Integrating Data.
Ex-Im Bank’s APS does not have the ability to fully support business processes and products as
they have evolved over time. This system was developed decades ago and no longer meets
Ex-Im Bank operational needs. Moreover, EOL only handles limited products online. During
our review, we noted inefficiencies such as manually re-keying participant data into multiple Ex-
Im Bank systems, researching incomplete data (see participant data finding A.2), and searching
for and printing of documents relevant to the transaction. Other workflow inefficiencies are
detailed below. While we identified no significant errors as a result of these inefficiencies, it was
noted that automation of the processes could improve workflow effectiveness and efficiency and
provide management with timely and useful information. Furthermore, records automation
would reduce potential fraud by ensuring all documents related to one customer are linked.

    	 Applications for long-term guarantee and loans cannot be submitted online and must be
       submitted through mail, e-mail or fax. These applications are then manually keyed into
       the APS and multiple paper copies of the files are then printed and sent to various
       departments for processing and manual keying of additional data. Manually keying data
       is an inefficient use of time and also results in the increased risk of incorrect data entry.

    	 Transportation underwriting data is not captured in APS. The key control in the
       underwriting approval process is the preparation of the Credit Analysis Memo, which is
       presented to the Board. This Memo documents the history of the borrower, Ex-Im
       Bank’s current relationship with the borrower, the economic conditions of the borrower,
       and the borrower’s ability to repay the note, among other things. APS was not designed
       as an underwriting system. APS was designed as a transaction-based system only and
       therefore does not have the ability to support retaining underwriting documents.

    	 APS was not designed for the uniqueness and complexity of transportation financing.5
       For the airline industry, for example, APS is unable to capture the level of detail
       necessary for the processing of each component of the deal when many components
       make up a deal. For example, one airline deal could include many aircrafts, different
       amount of co-financing per aircraft, and different co-financing parties per aircraft. Due to
       the size and complexity of the aircraft deals, the limited information available for each
       component is both inefficient and results in billing inefficiencies.

    	 Not all relevant data is transferred between APS, the LG/A system, and the Standard
       General Ledger system in a timely manner. During our procedures, we noted that the
       APS and LG/A interface transfers the U.S. portion of the deal first, while the non-U.S.
       denominated terms are transferred at a later date and that transfers between component
       tranches in APS require manual adjustment in LG/A. LG/A does not have the capability
       to process certain transactions in foreign currency. LG/A has difficulty calculating billing
       in U.S. dollars on a foreign currency tranche. Thus, the Loan and Guarantee Servicing
       Division manually generates a bill in Microsoft Word. Manual bills require additional
       processing time (approximately four to six hours) and, due to the amount of detail,
       require a number of manual reviews and edits. Once finalized, the Loan and Guarantee
       Servicing Division updates the invoice details in LG/A. With these manual changes,

5
 As of September 30, 2011, the air transportation sector represented 48.2% of Ex-Im Bank’s total exposure, i.e., the
authorized outstanding and undisbursed principal balance of loans, guarantees, and insurance.

                                                  Page 7
                                               AUDIT OF INFORMATION TECHNOLOGY
                                        SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

       inconsistencies can develop between APS and LG/A. The inefficiency becomes cyclical,
       resulting in errors in future bills that require manual adjustment.

   	 There is no formal policy surrounding working file document management. Currently
      files are kept either manually, electronically or both. The lack of an Ex-Im Bank working
      file document management policy results in some departments copying documents for
      their own files to perform the department’s objectives. Because of this practice,
      employees must spend additional time to locate all associated documents (e.g., original,
      working, approved, final version, etc.) to complete the transaction processing. Also, the
      Inspector General’s office must extend extraordinary efforts in identifying and gathering
      all documents associated to a potential case under investigation.

   	 Transaction Status is not easily apparent in reports generated in Ex-Im Bank Reporting
      System (“ERS”). A transaction classified as “troubled” could mean it has had a claim
      filed or could be related to late payments. A “closed” classification could actually mean
      paid in full or withdrawn. A user must drill down to determine the exact definition.

   	 Only one designated individual in the Asset Management Division has the knowledge
      and skill to generate reports on claims. This individual will generate a report from
      several different data sources, depending on the requested information.

   	 Numerous databases are independently maintained by Ex-Im staff (i.e., in Microsoft
      Access and Excel) and are not managed by the OCIO.

   	 Key documents are difficult to merge for the Department of Justice’s use in processing
      potential fraud cases due to files being password protected.


Recommendations

We recommend that the Executive Vice President and Chief Operating Officer:

   1. 	Have the business owners individually and in aggregate reevaluate their business
       requirements and minimum relevant data necessary to process transactions involving
       complex structures and to monitor business operations. They should then work with the
       Office of Information Technology to initiate, develop, and test an integrated application
       that is aligned with those needs and in support of Ex-Im Bank’s mission.

   2. 	 Develop a formal working file document management policy. In developing the formal
        policy, Ex-Im Bank should additionally a) educate Ex-Im Bank employees to ensure they
        understand the need to share consistent information across departments; b) establish
        the means to retain and share working file documents; c) store the policy in a readily
        accessible medium; and d) implement a mechanism to monitor compliance to the formal
        policy.




                                        Page 8
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Management’s Response

Recommendation 1:

We agree with the recommendation. The Ex-Im Bank has kicked off the first in a series of
processing system projects that are being funded from the IT Investment fund recently made
available. The various project plans, including the Participant Hub, Working Capital automation,
and Forms consolidation, all start with a detailed and thorough review of business requirements
and strategic direction with the business owners. The project plans then establish a Business
Stakeholders Steering Committee and a pool of identified business users who will test and
review any application development. The Business Stakeholders Steering Committee will have
final say on business requirements and on determining whether or not system proposals meet
those requirements.

In particular, one of the business operations with extremely complicated structures,
Transportation Finance, has begun a streamlining/LEAN exercise. This project is targeted to be
completed Summer 2012. As staff has acknowledged that the current processing system is a
mill-stone around their neck, one of the final products to be developed will be a detailed set of
system requirements that support the new business process. These system requirements will
be used in the project plan for "automating" Transportation Finance.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.

Recommendation 2:

We agree with the recommendation. The Ex-Im Bank will develop a policy based on best
practice in the Government. As more applications are handled online (e.g. insurance), the case
file is related attachments and artifacts are stored in the document management system used by
EOL.

The "Working File" policy will be based on the following parameters:

The National Archives and Records Administration (NARA) define working files as: "rough notes,
calculations, or drafts assembled or created and used to prepare or analyze other documents
(Also called working papers).

Working files are disposable once a document is finalized unless Working Files are Records.
NARA's regulations (36. CFR 1222.34(c)) say that working files are records if:

   1.	 They were circulated or made available to employees, other than the creator, for official
       purposes such as approval, comment, action, recommendation, follow-up, or to
       communicate with agency staff about agency business; and
   2.	 They contain unique information, such as substantive annotations or comments included
       therein, that adds to a proper understanding of the agency's formulation and execution of
       basic policies, decisions, actions, or responsibilities.

Staff will be provided training to determine which documents in their possession need to be filed
and retained as records, and which documents can be safely recycled or destroyed.

                                         Page 9
                                           AUDIT OF INFORMATION TECHNOLOGY
                                    SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Auditor Comment:

Management should also develop a compliance monitoring process. When accomplished, the
above action should satisfy this recommendation.




                                    Page 10
                                                  AUDIT OF INFORMATION TECHNOLOGY
                                           SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

A.2 Participant Information Is Not Always Timely and Completely Captured.
APS and EOL, designed for the processing of loan, guarantee, and insurance products, cannot
provide a complete view of participant activity due to difficulty in linking or highlighting duplicate
participant data. These weaknesses result in employees researching missing data, difficulty in
obtaining accurate and timely reports surrounding the Ex-Im Bank’s operations, and preventing
Ex-Im Bank and the Office of Inspector General from efficiently conducting forensic analysis to
identify possible patterns in transactions.

Certain transactions are processed even though there is missing documentation or information
as Ex-Im Bank does not require a unique identifier to be used by participants when applying for
a loan guarantee, or insurance or in required reporting to Ex-Im Bank. The following specific
items were identified:

   	 Returning participants cannot be automatically associated with their historical Ex-Im
      Bank transactions. The Operations and Data Quality Division has been working towards
      correcting this problem, but not all returning participants have been identified.

   	 Not all required information, such as shipping address, Data Universal Numbering
      System (“DUNS”) number, and phone numbers, is obtained and recorded in a timely
      manner. The Operations and Data Quality Division contacts the participant to obtain this
      information. However, participant information was missing back to August 2010 or nine
      months past shipment date in some cases. As of May 5, 2011, this Division had 250
      shipment reports that needed to be verified. As shipment reports could contain
      numerous participants, the actual number of participants to be verified is likely larger
      than 250.

   	 Accurate reports are not easily available by participant due to incomplete or duplicate
      participant data. Information on the following reports need to be manually tabulated to
      achieve a comprehensive view of a participant:

              o	 Transactions by geographic location or region;
              o	 Transactions by industry; and
              o	 Transactions by Ex-Im Bank’s product and sub-product line, such as Working
                 Capital Delegated Authority vs. Working Capital.

Management advised us that the unique identifier assigned to each participant upon the
submission of an application is not communicated to participants for use on future transactions.
Management stated that using a unique identifier which may already exist for participants (i.e.,
DUNS, tax identification, Social Security Number (“SSN”), etc.) is not always possible.
Management further stated that commonly used identifiers, noted above, may not exist across
domestic or international companies and companies may have multiple DUNS numbers for
multiple locations of their operations. Although personal identifiers are sometimes obtained
during a transaction, the information is not retained. For example, individual participant’s data
such as an SSN is not retained within the system. Management’s rationale is that such data is
not retained due to security reasons and the amount of transactions involving individuals is
small in comparison to the total operations of the business. Even though the last four digits
could be maintained, it would not be sufficient to properly link participants’ information for key
items such as history and relationships.

                                           Page 11
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Required fields for application processing need to be expanded or revised as current
requirements are not sufficient for Ex-Im Bank’s needs. Existing participants can submit
incomplete reporting without a delay in the transaction processing. For example, shipment
reports are allowed to be submitted with required fields such as address populated with “TBD”
(to be determined).

Ex-Im Bank does not have a centralized master data management policy and procedures to
manage participant data flow between its IT applications. The lack of complete and accurate
participant data results in difficulty:

   	 Capturing the necessary data for business owners to transact and monitor business
      operations on its applications;

   	 Promptly providing management with business information to support the business
      process;

   	 Efficiently using resources, as Ex-Im Bank has dedicated three employees to process
      applications and reconcile more than 1,800 new participant records per month that are
      created during the application process. Additionally, two employees spend 100% of their
      time researching missing participant data and reconciling potential duplicate or related
      participants in the 300,000 existing participant records already in Ex-Im Bank’s systems;
      and

   	 Reducing its risk exposure to fraud, due to the limitations regarding the lack of a bank-
      wide participant unique identifier and the subsequent difficulty in tracking transactions by
      participant.


Recommendations

We recommend that the Executive Vice President and Chief Operating Officer:

   3. 	Implement a bank-wide unique identifier to ensure that all new participants can be
       readily identified and returning participants are associated with their historical
       transactions.

   4. 	 Have the business owners revise the required minimum participant data necessary to
        process an application. Ex-Im Bank should only process applications that meet those
        minimum criteria.

   5. 	Develop a formal data management policy and procedures to ensure complete and
       accurate participant data is captured in Ex-Im Bank’s centralized database and define
       which information is required for reporting purposes. The policy and procedures should
       include, as soon as possible, a clear definition and management of participant
       identification so it can link participants to transactions.

   6.	 Require that the formal data management policy and procedures be a) communicated to
       appropriate Ex-Im Bank employees; b) reviewed annually, updated, and re-
       communicated accordingly; and c) stored in a readily accessible medium.


                                         Page 12
                                                 AUDIT OF INFORMATION TECHNOLOGY
                                          SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Management’s Response

Recommendation 3:

We agree with the recommendation. Ex-Im Bank has kicked off the first in a series of
processing system projects that are being funded from the IT Investment fund recently made
available. One project which has already commenced is the Participant Hub project. One of the
business requirements that has already been identified is that there be a bank-wide unique
identifier to ensure that all new participants can be readily identified and returning participants
are associated with their historical transactions. The Participant Hub project plan commenced
in November 2011 and is projected to be fully implemented by January 2013. With
implementation of the Participant Hub, Ex-Im Bank will have a bank-wide unique identifier and
processes to ensure that all new participants can be readily identified and returning participants
are associated with their historical transactions.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.

Recommendation 4:

We agree with the recommendation. Ex-Im Bank has kicked off the first in a series of
processing system projects that are being funded from the IT Investment fund recently made
available. There are two projects moving hand-in-glove. They are the Participant Hub and
Forms Consolidation projects. As part of the business requirements process for each project,
business users are identifying the minimum required participant information for the Participant
Hub and the minimum required participant (and other) information for processing an application.
The Participant Hub project plan commenced in November 2011 and is projected to be fully
implemented by January 2013. Meanwhile, the Forms Consolidation project started December
2011 and is projected to be implemented by March 2012.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.

Recommendation 5:

We agree with the recommendation. Ex-Im Bank has kicked off the first in a series of
processing system projects that are being funded from the IT Investment fund recently made
available. One project which has already commenced is the Participant Hub project. As part of
the business requirements process for the project, business users are identifying the
appropriate policies and procedures that will need to be established to ensure complete and
accurate data is captured and maintained in the Participant Hub and the connected transaction
processing systems. The Participant Hub project plan commenced in November 2011 and is
projected to be fully implemented by January 2013.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.


                                          Page 13
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Recommendation 6:

We agree with the recommendation. One of the benefits that Ex-Im Bank hopes to achieve
from its processing system projects is full documentation of policies and procedures that will be
readily accessible to business users and communicated to the business users. As the projects
progress, documentation will be developed and reviewed by the business users.

Auditor Comment:

When accomplished, the above actions should satisfy this recommendation.




                                         Page 14
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

B – INFORMATION TECHNOLOGY

Ex-Im Bank does not have practices to effectively manage its strategic planning, IT spending,
and the SDLC and PCM. The audit found that the Office of the Chief Financial Officer (“OCFO”)
does not have sufficient detailed information on the amount of IT spending versus plans and the
specific purpose for each expenditure; the Strategic Plan was not formally approved and is not
sufficiently comprehensive to coordinate and manage initiatives; and the SDLC and PCM
processes are not consistently followed. Failure to have strong controls in these areas prevents
management from determining and monitoring the best use of funds to improve IT support of
Ex-Im Bank’s mission.


B.1 Strategic Planning Process Does Not Address Current and Future
Needs.
Ex-Im Bank does not have the necessary IT planning process in place to guide its efforts.
Although Ex-Im Bank has an IT Strategic Plan covering fiscal years 2011 through 2014, the plan
was not formally approved and it is not sufficiently comprehensive to coordinate and manage
initiatives and projects. A comprehensive IT Strategic Plan would describe what Ex-Im Bank
seeks to accomplish, identify the strategies it will use to achieve desired results, and provide
results-oriented goals and performance measures that permit it to determine whether it is
succeeding. Key items including Project Sponsorship, Project Timelines, Project Savings, and
Business Drivers were not captured for major IT investment projects, and official approval of the
IT Strategic Plan was not evident.

An approved comprehensive IT strategic plan, which is a foundation for effective modernization
and is required by federal guidance, would provide Ex-Im Bank with the tool to serve as Ex-Im
Bank’s IT vision or roadmap and help align its information resources with its business strategies
and investment decisions. A comprehensive IT strategic plan identifies what an agency intends
to accomplish – if funded - during a given period and helps ensure that the necessary
infrastructure is put in place for new or improved capabilities. In addition, a IT strategic plan
which identifies interdependencies within and across individual IT systems modernization
projects helps ensure that the interdependencies are understood and managed, so that projects
and systems are effectively integrated. The lack of a complete, accurate, and formally approved
IT Strategic Plan can potentially result in misapplied funds to execute major IT development that
do not meet Ex-Im Bank’s mission. As discussed above, this audit identified weaknesses in IT,
which result in the lack of effective and efficient processing of Ex-Im Bank’s business
requirements.

Congress and OMB have recognized the importance of IT management controls. The Clinger-
Cohen Act, for example, provides a framework for effective IT management that includes
systems integration planning, human capital management, and investment management. In
addition, the Paperwork Reduction Act requires that agencies have strategic plans for their
information resource management, and the E-Government Act of 2002 contains provisions for
improving the skills of the federal workforce in using IT to deliver government information and
services. Further, OMB has issued guidance on integrated IT modernization planning and
effective IT human capital and investment management.

OMB Circular A-130 – Management of Federal Information Resources, Transmittal
Memorandum No. 4 directs agencies to establish information system management oversight
                                         Page 15
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

mechanisms that (a) ensure that each information system meets agency mission requirements;
(b) provide for periodic review of information systems to determine (i) how mission requirements
might have changed, (ii) whether the information system continues to fulfill ongoing and
anticipated mission requirements and (iii) what level of maintenance is needed to ensure the
information system meets mission requirements cost effectively; and (c) ensure that the official
who administers a program supported by an information system is responsible and accountable
for the management of that information system throughout its life cycle.

OMB Circular A-130 section 7.i., states that “… the agency strategic plan will shape the
redesign of work processes and guide the development and maintenance of an Enterprise
Architecture and a capital planning and investment control process. This management approach
promotes the appropriate application of Federal information resources.” Section 7.9.b(1) states
“Agencies must establish and maintain a capital planning and investment control process that
links mission needs, information, and information technology in an effective and efficient
manner. The process will guide both strategic and operational IRM, IT planning, and the
Enterprise Architecture by integrating the agency's IRM plans, strategic and performance plans
prepared pursuant to the Government Performance and Results Act of 1993, financial
management plans prepared pursuant to the Chief Financial Officer Act of 1990 (31 U.S.C.
902a5), acquisition under the Federal Acquisition Streamlining Act of 1994, and the agency's
budget formulation and execution processes. The capital planning and investment control
process includes all stages of capital programming, including planning, budgeting, procurement,
management, and assessment.”

As of August 2011, OMB issued M-11-31 placing responsibility on the Chief Operating Officer to
lead the agency’s efforts to set priority goals; designate a senior official responsible for each
goal; and review progress quarterly to improve performance and reduce costs. OMB also
issued in August 2011 M-11-29 placing responsibility on the CIO to be responsible and
accountable for the operating efficiency of the agency.


Recommendation

We recommend that the Executive Vice President and Chief Operating Officer and the Chief
Information Officer:

   7. 	Collaborate to develop a formally approved robust process for creating a clear and
       comprehensive IT Strategic Plan according to OMB requirements to effectively support
       Ex-Im Bank’s mission.

Management’s Response

We agree with the recommendation. The Ex-Im Bank will adhere to using the Capital Planning
and Investment Control (“CPIC”) process to identify investment initiatives and the COO will
provide timely goals and objectives. The CIO will develop plans and Cost Benefit Analysis and
alternatives and develop a detail IT strategic plan and seek timely approval of plans and funds
them for the effective execution of the IT strategic plan.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.


                                         Page 16
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

B.2 IT Budget and Spending Practices Do Not Provide Adequate Data for
Investment Oversight.
Ex-Im Bank has a budget process in place, but improvements are needed to report actual
versus planned IT spending and manage IT investments. For fiscal year 2010, the total IT
budget excluding personnel expenses was $13,485,081.68. However, the actual IT spending
data provided by the Treasurer was $13,537,177.53 (as of May 2011) whereas the official
record in AAA reported $13,475,531.55 (as of June 2011). This difference occurred due to AAA
system limitations, which does not capture plans versus expenditures and does not provide
detailed IT expenditure information for OCFO personnel to perform proper review. Furthermore,
the official approved budget for IT contained $0 for enhancements, but we noted spending items
which may be related to enhancements for critical systems rather than maintenance and
operations. While Ex-Im Bank has an executive review board to approve new projects, it does
not have a policy to include a formal and robust process to track, review, and monitor the actual
IT spending versus plans at the detail level. Without strong management and accountability in
selecting and overseeing IT investments, Ex-Im Bank is exposed to the risk that projects will not
improve IT support as originally planned.

Although significant IT work has been performed over the last several years, Ex-Im Bank’s
Information Technology Executive Review Board (“ITERB”), which is made up of senior
executives excluding the CIO, has not submitted a request to OMB for an investment since
2008. The ITERB is responsible to approve or preliminarily approve the investment pursuant to
a full-blown cost-benefit analysis. Once the ITERB approves an investment, the CIO works with
the Budget Officer to conduct a budget analysis and determine sources of funding for the
investment. The ITERB prioritizes the investment against other investments in the Ex-Im Bank
IT portfolio. While these actions are positive, the ITERB does not track cost and schedule
variances to ensure the project will produce the intended results at minimum costs.

The CIO stated that requests for enhancements have not been submitted to the ITERB because
the OCIO has not received additional funds the last three years; thus all IT work has been for
maintenance and sustainment. However, we identified potential expenditure of fiscal year 2010
IT funds used for enhancements, such as the deployment of new products such as Insurance
Express, Supply Chain Facility, and Reinsurance. We estimate that 11% ($1.5M) of expenses of
the approved IT budget are enhancements and should not just be classified as sustainment.

In conclusion, our review of IT spending found that funds were not accurately categorized
according to OMB CIRCULAR A–11 Section 53 – Information Technology and E-Government.
Section 53 provides guidance to allow the agency and OMB to review and evaluate each
agency's IT spending. This section defines the amount being spent on development and
modernization of IT versus the amount being spent on operating and maintaining the status quo
for IT as follows:

   	 Development/Modernization/Enhancement means the program cost for new
      investments, changes or modifications to existing systems to improve capability or
      performance, changes mandated by the Congress or agency leadership, personnel
      costs for investment management, and direct support.




                                         Page 17
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

   	 Steady State means maintenance and operation costs at current capability and
      performance level including costs for personnel, maintenance of existing information
      systems, corrective software maintenance, voice and data communications
      maintenance, and replacement of broken IT equipment.

By not properly categorizing IT spending, the ITERB had not been provided with critical
business user and cost information to prioritize the investment against other investments in the
Ex-Im IT portfolio. Also, the ITERB lost the opportunity to be informed on the status and
usefulness of IT investments because it had no policy or procedures to monitor and improve
project planning and execution.

Recognizing that OMB M-11-29, Chief Information Officer Authorities, is not applicable to the
items noted above because it was issued on August 8, 2011, this directive is relevant to our
recommendation to improve managing IT investments. This memorandum identifies the need to
shift the primary responsibilities of the federal CIO, "away from just policy making and
infrastructure maintenance, to encompass true portfolio management for all IT." The memo
states the following:

       Agency CIOs must be positioned with these responsibilities and authorities to improve
       the operating efficiency of their agencies. In addition to their statutory responsibilities
       through the Clinger-Cohen Act and related laws, under the IT Reform Plan there are four
       main areas in which Agency CIOs shall have a lead role:

           1. 	 Governance. CIOs must drive the investment review process for IT investments
                and have responsibility over the entire IT portfolio for an Agency.
           2. C 	 ommodity IT. Agency CIOs must focus on eliminating duplication and
                rationalize their agency's IT investments. CIOs must show a preference for using
                shared services as a provider or consumer instead of standing up separate
                independent services.
           3. 	 Program Management. Agency CIOs shall improve the overall management of
                large Federal IT projects by identifying, recruiting, and hiring top IT program
                management talent. CIOs will be held accountable for the performance of IT
                program managers based on their governance process and the IT Dashboard.
           4. 	 Information Security. CIOs, or senior agency officials reporting to the CIO, shall
                have the authority and primary responsibility to implement an agency-wide
                information security program and to provide information security for both the
                information collected and maintained by the agency, or on behalf of the agency,
                and for the information systems that support the operations, assets, and mission
                of the agency.

With responsibilities for these four areas, Agency CIOs will be held accountable for lowering
operational costs, terminating and turning around troubled projects, and delivering meaningful
functionality at a faster rate while enhancing the security of information systems. These
additional authorities will enable CIOs to reduce the number of wasteful duplicative systems,
simplify services for the American people, and deliver more effective IT to support their agency's
mission.




                                         Page 18
                                              AUDIT OF INFORMATION TECHNOLOGY
                                       SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Recommendations

We recommend that the Executive Vice President and Chief Operating Officer and the Chief
Information Officer:

   8. 	Classify requested and authorized IT funds according to OMB’s CIRCULAR A–11
       definitions on the development and modernization of IT versus the amount being spent
       on operating and maintaining the status quo for IT.

   9. 	Enhance or replace the AAA system or develop an IT system to provide current
       information on actual versus planned IT spending to ensure the proper management of
       IT operation and maintenance spending and investments.

We recommend that the Executive Vice President and Chief Operating Officer:

   10. Formally direct the CIO on the implementation of the new requirements prescribed in
       OMB’s M-11-29, Chief Information Officer Authorities.

Management’s Response

Recommendation 8:

We agree with the recommendation. The Ex-Im Bank doubled its authorizations since 2008
(more transactions, more disbursements, more documents, more data base support, etc.). This
increase of ongoing support and related transactions are NOT status quo. They are operations
and maintenance (“O&M”) and "sustain engineering". The Ex-Im Bank uses "Sustain
Engineering" for ongoing required maintenance, refresh, and small enhancements for systems.
The Ex-Im Bank uses the term "Investment" for major system or programmatic changes (It
should be noted that the low end enhancements in OMB are around $5 million dollars). That
same definition and approach is used across the Government, especially by small agencies.

The Ex-Im Bank will make budget estimates and distinction between "Fixes" and "Change
Requests" in the development cycles to capture these differences. Ex-Im Bank will continue to
use the Government-wide use of the context of the Exhibit 53 and intent of circular A-11 for
large investments. Ex-Im Bank will ensure the Executive Working Group (“EWG”) is involved
and monitor the "sustain engineering" tasks as well as the major investments used as part of
the Exhibit 53.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.




                                       Page 19
                                               AUDIT OF INFORMATION TECHNOLOGY
                                        SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

Recommendation 9:

We agree with the recommendation. The CFO and CIO have established a team to evaluate the
enhancement/replacement of AAA with a financial core (FMLOB) budgeting system. This
initiative is included in the OCIO strategic plan and includes a system capable of tracking
planning, obligation, and actual information.     Execution of this plan is dependent on
"INVESTMENT" funding being made available for the initiative. Since 2008, this initiative was
being evaluated for funding. Planning, requirement, and alternatives documentation was
prepared. The next step is to update that documentation, attend demos, and seek budget and
resources to pursue this goal.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.

Recommendation 10:

We agree with the recommendation. A number of these guidance and objectives are already in
place. The Ex-Im Bank is a small agency and all of IT is managed by the OCIO.

Plans are to be executed in the next 9 month to transfer email to the cloud. The continuity of
operations (“COOP”) capability is already deployed in the cloud and a web site service through
the cloud is being reviewed for security and cost effectiveness.

Lean and Agile development processes are going to be implemented as part of the investment
fund execution that includes the 'Participant Hub, Working Capital automation, and Forms
consolidation.

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.




                                       Page 20
                                                AUDIT OF INFORMATION TECHNOLOGY
                                         SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

B.3 Ex-Im’s Systems Development Life Cycle and Program Change
Management Processes Are Not Consistently Followed.
Ex-Im Bank has an SDLC, which includes a PCM process, in place. However, Ex-Im Bank’s
SDLC process was not consistently followed to implement the ERS system. The SDLC
provides a structured and standardized process for all phases of any system development
effort, integration and testing, deployment and acceptance, and finally to system retirement. Ex-
Im System Development Life Cycle Policy, Version 1.0, pages 11, 7 and 9, respectively state
the following:

       “Data management, configuration management, and quality assurance must be
       considered throughout the system life cycle. The project manager will create and
       maintain the SDLC deliverables …”

       “…Manage IT projects as investments. Proposed Automated Information System (“AIS”)
       or IT infrastructure projects must be supported by a business case that includes
            an analysis of the expected costs and benefits for a project
            alternative solutions considered
            potential programmatic and technical risks
            outcomes and performance measures: the overall contribution of the project to
                Bank’s missions, goals, and objectives…”

       “…End-user participation and involvement throughout life cycle activities is crucial to the
       success of each project. End-users must participate early in any AIS project in order to
       obtain clear, validated functional requirements, and to provide user acceptance testing…
       End-users must be provided with initial training to support a newly installed AIS or IT
       infrastructure system and receive additional training necessary to effectively use system
       modifications and enhancements…”

We identified the following findings:

   	 No evidence was provided to show that master data management procedures are in
      place to manage participant data flow from the EOL and F&AS to the ERS;

   	 No evidence was provided to show that a Business Needs Analysis was performed for
      the ERS implementation;

   	 No evidence was provided to show that there was formal management approval of test
      plans and the “Go-Live” decision for the ERS implementation; and

   	 No actual training attendance records exist for the ERS implementation to evidence that
      business users were adequately trained prior to implementation.

Additionally, Ex-Im Bank’s PCM process – User Acceptance Testing (“UAT”) -- as directed in
Ex-Im System Development Life Cycle Policy, Version 1.0, Page 9, was not consistently
followed to implement system changes to the EOL and FAS systems. We identified the
following finding:

   	 No evidence was provided to show that UAT was performed in 100% of the change
      requests to ensure that system changes were functioning properly or met the stated
                                         Page 21
                                               AUDIT OF INFORMATION TECHNOLOGY
                                        SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

       business requirements for modifications to critical application functionality for EOL and
       F&AS.

Without consistent adherence to Ex-Im’s SDLC, including the PCM process, new systems or
modification to existing systems may negatively impact business users’ needs and result in the
ineffective and inefficient use of technology in support of Ex-Im’s mission.

Recommendation

We recommend that the Executive Vice President and Chief Operating Officer and the Chief
Information Officer:

   11. Ensure Ex-Im Bank’s SDLC process is consistently followed when implementing major
       systems and performing system changes.

Management’s Response

We agree with the recommendation. In addition, the Ex-Im Bank is planning to use the Lean
"Agile Development Methodology" to replace its existing heavy structured SDLC processes to
ensure "delivering meaningful functionality at a faster rate while enhancing the security of
information systems. These additional authorities will enable ClOs to reduce the number of
wasteful duplicative systems, simplify services for the American people, and deliver more
effective IT to support their agency's mission"

Lean Agile principles "promote a development lifecycle that includes frequent inspections with
small incremental tasks; supports collaboration and self-organization; and encourages the fast
delivery of high-quality software." Lean Agile development principles include:

          o   Individuals and interactions over processes and tools.
          o   Working software over comprehensive documentation.
          o   Customer collaboration over contract negotiation.
          o   Responding to change over following a plan

Auditor Comment:

When accomplished, the above action should satisfy this recommendation.




                                        Page 22
                                             AUDIT OF INFORMATION TECHNOLOGY
                                      SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

APPENDIX A – BUSINESS OPERATION FLOWCHARTS

As a part of our audit procedures, we documented the transaction flow of selected business
operations processes and work streams including the following:

             Short-Term, Single-Buyer, Multi-Buyer, Medium-Term Insurance and Medium-
              Term Guarantees;
             Medium-Term, Long-Term and Working Capital Guarantees, and Long-Term
              Insurance;
             Transportation Underwriting and Transportation Billing; and
             Claims Processing.




                                      Page 23
                                                                                        AUDIT OF INFORMATION TECHNOLOGY
                                                               SUPPORT                 FOR EXPORT-IMPORT BANK’S MISSION
                     Products: Short Term Insurance, Single Buyer Insurance, Multi‐Buyer Insurance, Medium Term Insurance and Medium Term Guarantees 
                             Operations & Data Quality                                                                         Processing / Underwriting
                              Application: EXIM On Line                                                                        Application: EXIM Online



  Prospective
                                                                                                                         EXIM Online



Enter  borrower 
      info                                                                                                               UW reviews 
                                                                                                                          in EXIM                Underwriting can include any 
                                                                                                                           Online                number of EXIM divisions to 
                                                                                                                                                 assess & price the risk.
    Internet
                                                                                                                                                 Additional contact with the 
                                                                                                                                                 prospective insured proceeds, 
                                                                                                                                                 as necessary.
                                                                                                                        Underwriting
                                                                                                                          process

   EXIM Online




                                                                                                                                               No
                                                                                                                      Approved?                              End

   Suitable for                No          T o APS
      EOL?
                                                                                                                                  Yes


           Yes                                                                                                     Enter approval in 
                                                                                                                    EXIM Online & 
                                                                                                                  Prepare UW Memo
   Operations  & 
   Data Quality 
     reviews 

                                                                                                                      Undwriting Memo




    Complete  &
                               No
                                           Prospective
   Appropriate?
                                                                                                                            Store
                                                                                                                         Underwiritnng 
                                                                                                                         Memo in EOL




       When                           Requested docs                                                                 Update EXIM Online 
     complete,                           (may be                                                                       with UW terms
    update EOL                          electronic)




                                                                                                                         EXIM Online
Update EXIM Online




                                                                                                                        Prepare Policy
      Store all 
  supporting docs  in
                     
        EOL


                                                                                                                        Opeations & 
                                                                                                                        Data Quality 
                                                                                                                          reviews 

    EXIM Online


                                                                                                                            Policy
                                                                                                                     (electronic format)
    EOL routes to 
     processing 
   (underwriting)


                                                                                                                           Insured




                                                                                     Page 24 
                                                                                                                          AUDIT OF INFORMATION TECHNOLOGY
                                                                                       SUPPORT                           FOR EXPORT-IMPORT BANK’S MISSION




                                                                    Products: Mid Term Guarantees, Long Term Insurance, Long Term Guarantees & Working Capital
                          Operations & Data Quality                                                                            Processing (Underwriting)                                                 Legal
                              Application: APS                                                                                     Application: APS                                                 Application: APS

                                                                                                                                                  Underwriting can include any
           Prospective                                                                                                                            number of EXIM divisions to assess
                                                                                                        Application                               & price the risk.
                               Submission can                                                                                                                                           Update APS with UW
                                                                                                        Documents
                                be mail, fax &                                                                                                                                         terms, conditions, etc.
                                   email.                                                                                                         Additional contact with the
                                                                                                                                                  prospective insured proceeds, as
                                                      From EXIM                                                                                   necessary.
            Application
                                                        Online
                                                                                                       Underwriting
                                                                                                         process                                                                                APS




                                                                                                    Update APS with UW
                                Search for                                                         terms, conditions, etc.                                                                  Print loan /
                               participant in                                                                                                                                              product docs
                                    APS


                                                                                                            APS

                                                                                                                                                                                             Loan Docs

            No                    Existing                Yes                                           Prepare UW
                                participant?                                                             Memo for
                                                                                                       Board review

                                                            Link new
                                                          transaction                                                                                                                     To Legal Dept for
Create new participant                                     to existing                               Prepare Credit UW                                                                    docs preparation
                                                          participant                                     Memo




                                                                                                      Board review to
                                                                                                                                                                                          Signed and Final
                                                                                                       approve / not
                            Enter applicaiton into                                                                                                                                           Agreement
                                                                                                         approve
                                    APS




                                                                                                                              Yes
                                                                                                         Approved?                                                                             Insured
                                    APS




                                                                                                                   No
                                  Organize                                                                   End
                                 submitted
                                  docs and
                                route to UW




                              Application
                              Docments




                                                                                                      Page 2ϱ 
                                                                                                 AUDIT OF INFORMATION TECHNOLOGY
                                                                           SUPPORT              FOR EXPORT-IMPORT BANK’S MISSION


                                   Transportation Underwriting                                                             Transportation Billing
                Application: APS                                 Application: None Noted                                     Application: LG/A



   Completed and
     Approved                                                     To Legal Dept for                      LG/A
                                                                  docs preparation




    Underwriting
      process                                                      Signed and Final                      Print
                                                                      Agreement




 Update APS with UW                                                      File
terms, conditions, etc.                                                                                                                             Includes, but is not limited to, a
                                                                                                        Invoice                                     review of the following:
                                                                                                                                                    1.) Compenents
                                                                                                                                                    2.) Roll over of tranches
                                                                                                                                                    3.) Price fees
         APS

                                                                                                    Manually review
                                                                                                      invoice for
                                                                                                      correction
     Prepare UW
    Memfor Board
       review


                                                                                                                      No
  Prepare Credit UW                                                                                   Approved?                Manually adjust invoice
       Memo                                                                                                                          in LG / A



   Board review to
    approve / not
      approve                                                                                         Customer
                                                                                                        End



                             No
      Approved?                      E




 Update APS with UW
terms, conditions, etc.


                                   Print loan /
          APS                       product
                                      docs



        Nightly
                                   Loan Docs
       interface
       with LG/A




                                                                                      Page 26
                                                                                                             AUDIT OF INFORMATION TECHNOLOGY
                                                                                SUPPORT                     FOR EXPORT-IMPORT BANK’S MISSION

                                                                                             Claims Processing
                                                                                            Application: CARDS
 Front Desk                       Claims Officer                           Contractor          Managing Director (Richard Brackley)                             Office of the CFO
                                                                                                                                           Approval            Cash Disbursements    Cash Receipt
   Insured
                                                                                                              A
                                                                          Contractor                                                                               B                      D
                       Claims Officer                                 assesses coverages
  EXIM Loss      C        assigns a                                    & develops initia
    Form                 Contractor                                      loss estimate
                                                                                                                                      No                                                Cash
                                                                                            No                                                               Review Memo
                                                                                                          Approve?                         Approve?                                    Rece pts
                                                                                                                                                             for Approva s
 Entered nto
   CARDS                   CARDS                                          Entered nto                             Yes                                 Yes
                                                                            CARDS             C                                        C
                                                                                                                                                               Compare              Enter into LG/A
                                                                                                          Approve                           Approve          approved pmts
   CARDS                                                                                                   Memo                              Memo               to LG/A
                     Assess Contractor s
                        assessment.
                      Approve / Ad ust                                   Entered via                                                                                                     LG / A
                        as necessary                                       remote                          Claims                            Claims
Based on claim                                                                                             Memo                              Memo                LG / A
type route to
Claims Officer
                        Entered nto                                                                                                                                                   Prepare 122P
                          CARDS                                                                                                                                                     list ng unapplied
                                                                                                                                                            Disburse funds via         cash receipts
                                                                                                         Addit ona                                          Treasury s Secure
                                                                                                         approva s                                           Payment System
                            CARDS                                                                        necessary?

                                                                                                                                                                                         122P
                                                                                                                                                                Claimant
                           CARDS is
                          configured
                         for approva                                                                          B
                                                                                                                                                                                      Program Mgt
                          authorities.                                                                                                                                              Assistants rev ew
                                                                                                                                                                                    claims and apply

                         Each night
                        CARDS sends
                         claims data                      LG/A
                                                                                                                                                                                         LG / A
                           to LG/A



                      Prepare Claims                                                                                                                                                       End
                      Memo for claims
                         payment
                        process ng


                           Claims
                           Memo




                         Addit ona                 Yes
                         approva s                            A
                         necessary?



                                   No

                              B




                                                                         Contractor
                     For approved claims
                                                                     assesses coverages
                       begin collection
                                                                      & develops initia
                           efforts
                                                                        loss estimate




                     Assign a collection                                Entered nto
                          agency                                          CARDS




                                                                  Entered via
                          CARDS                                     remote



                         CARDS is
                        configured
                       for approva
                       authorities.



                        Each night
                       CARDS sends
                        claims data                      LG/A
                          to LG/A

                                                          D




                                                                                           Page 27
                                        AUDIT OF INFORMATION TECHNOLOGY
                                 SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

APPENDIX B – ACRONYMS

AAA                   Administrative Account Application
AIS                   Automated Information System
APS                   Application Processing System
BDO                   BDO USA, LLP
CARDS                 Claims and Recovered Debt Servicing System
CIO                   Chief Information Officer
COOP                  Continuity of Operations
CPIC                  Capital Planning and Investment Control
DUNS                  Data Universal Numbering System
EOL                   EXIM Online
ERS                   Ex-Im Bank Reporting System
EWG                   Executive Working Group
Ex-Im Bank or Ex-Im   Export-Import Bank of the United States
F&AS                  Financial and Administrative System
GAGAS                 Generally Accepted Government Auditing Standards
GSS                   Infrastructure General Support System
IIS                   Integrated Information System
IT                    Information Technology
ITERB                 Information Technology Review Board
LG/A                  Loan and Guarantee Accounting System
O&M                   Operations and Maintenance
OCFO                  Office of the Chief Financial Officer
OCIO                  Office of the Chief Information Officer
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
Oracle GSS            Oracle General Support System
PCM                   Program Change Management
RLOANS                Rescheduled Debt Servicing System
SDLC                  Systems Development Life Cycle
SSN                   Social Security Number
UAT                   User Acceptance Testing
U.S.                  United States




                                 Page 28
                                   AUDIT OF INFORMATION TECHNOLOGY
                            SUPPORT FOR EXPORT-IMPORT BANK’S MISSION

APPENDIX C – MANAGEMENT’S RESPONSE





                          SEE NEXT PAGE





                            Page 29
                                          /          \         


                                                   1

                                   EXPORT-IMPORT BANK
                                     OF THE UNITED STATES


                                       January 13th, 2012


Mr. Osvaldo L. Gratacos
Inspector General
Office of the Inspector General
Export-Import Bank of the United States
811 Vermont Avenue NW
Washington, DC 20571


Dear Inspector General Gratacos,

Thank you for providing Ex-Im Bank management with the Office of the Inspector General
(OIG)'s Audit of IT Support for Ex-Im Bank's Mission.

Bank management concurs with all of your office's findings. Please find detailed responses to
each OIG recommendation from the Bank's Chief Information Officer and its Vice President for
Data Quality and Operations attached to this letter.

The Bank has embarked on a series of system improvement projects to address many the issues
the Report identifies. In particular, we would like to draw your attention to three ongoing IT
projects which began in November and December 2011—immediately after FY2011 funding
was made available by Congress and OMB and properly obligated. The Participant Hub project,
which will be fully implemented by January 2013, will create a bank-wide, unique identifier for
each participant, resolving many of the data management concerns that you highlight. In
addition, the Bank has embarked on a Forms Consolidation project to evaluate the minimum data
necessary for a transaction and align documentation accordingly. The initial phase of this project
(conducted on a subset of forms) should be completed by May 2012. Finally, our Working
Capital Automation project will further reduce unnecessary or duplicative processes. As you
suggest in your report, the relevant business owners will be deeply involved all three of these
projects through a Business Stakeholders User Committee.

Regarding your recommendation on the AAA financial systems, we would direct your attention
to a team that the OCFO and OCIO already have in place to evaluate replacement of AAA with a
core financial budgeting system. The team has already completed planning, requirement
specifications, and alternatives analysis for the project. Implementation of these plans has been
contingent on availability of funding since 2008. With newly available funding in the Bank's
FY2012 appropriations language, moving forward with this project is one of our highest
priorities.




                        811 VERMONT AVENUE, N.W WASHINGTON, D.C. 20571
While we agree with all the OIG's recommendations, we would also like to express a difference
of opinion with the report's definition of funds expended on "status quo" IT operations and
management versus IT "development and investment". As our CIO explains in her response, the
Bank's unprecedented increase in workload since 2008 is not a "status quo" operations and
management situation. Rather, the Bank defines its IT efforts to cope with the extraordinary
growth as a program of "sustain engineering." Sustain engineering includes ongoing required
maintenance, system refreshes, and small enhancements as needed. The Bank considers
"investment" to be a major and programmatic change, in line with the OMB definitions.
However, the Bank will include a distinction in budget estimates between "Fixes" and "Change
Requests" in future development cycles in order to better capture these differences.

Finally, we are pleased to inform the OIG that since Congress has made incremental funding
available for IT the Bank has engaged independent consultants from the MITRE Corporation to
help guide us through our IT investment and modernization process. We hope that as our
consultations with MITRE progress, we can resolve many of the underlying IT and systems
issues that you identify.

Thank you again for the OIG's efforts to improve Ex-Im Bank's IT infrastructure and to ensure
that the Bank's systems and policies are aligned with its mission. We appreciate your hard work
and input and look forward to continuing to work closely with the OIG.



                                            Sincerely,




                                            Alice P. Albright, CFA
                                            Chief Operating Officer &T3xecutive Vice President
                                            Export-Import Bank of the United States


CC:	 Fred P. Hochberg
     Chairman & President
     Export-Import Bank of the United States

     Mike Cushing
     Senior Vice President for Resource Management
     Export-Import Bank of the United States
                                   EXPORT-IMPORT BANK
                                    of the UNITED STATES



December 23, 2011 


MEMORANDUM 


To:             Jean Smith
                Assistant Inspector General for Audit

From:           Fernanda Young
                Chief Information Officer


Subject:        Audit of Information Technology Support for Export-Import Bank's Mission
                (OIG-xx-11-xx, December 16,2011 (Revision) - Response to
                recommendations.


       We appreciate your providing us with an opportunity to review a draft of the report and
the cooperation and subsequent reviews of the document with your auditors.

       With regard to your memorandum of November 25, 2011, and the revision of the draft
document dated December 16, 2011, following are management's response to the six
recommendations from the BDO USA, LLP ("BDO") report provided during their audit of the
Information Technology Support for Export-Import Bank's Mission. Management responses to
recommendations 2, 7-11 are included in this letter.

         In addition to the specific audit objectives described in page / of the BDO report, the
auditor did perform a number of core IT audit tasks and IT security controls of the IT systems.
The core infrastructure IT capabilities of the Ex-Im Bank are solid and effective. In FY 2011, Ex-
Im Bank a) enhanced its security posture and oversight for its handling of sensitive information;
b) performed annual reviews of IT policies and procedures; c) performed a network and public
facing application penetration testing with no major or minor vulnerability findings; d) exercised
its continuity of operations plan including participation in Eagle Horizon 10 and disaster recovery
testing for its major applications and e) implemented a large number of infrastructure refresh
tasks. During that same period, a large number of business applications sustain engineering
tasks were implemented through five major mission critical releases of the Financial and
Administrative Systems (F&A) and the EXIM Online (EOL) public facing system.

       Management agrees with the recommendations described in the BDO report. The Bank
has submitted requests for funding to upgrade its old custom designed (1990-type) applications
systems and will continue to enhance and improve on its processes and using technology as a
resource multiplying strategy for supporting the expanding mission of the Ex-Im Bank supporting
the National Export Initiative (NEI).

         The following letter addresses the recommendations 2 and 7 to 11.


Recommendation 2


We recommend that the Executive Vice President and Chief Operating Officer:

         2) Develop a formal working file document management policy. In developing the
            formal policy, Ex-Im Bank should additionally a) educate Ex-Im Bank employees to
             ensure they understand the need to share consistent information across
             departments; b) establish the means to retain and share working file documents; c)
            store the policy in a readily accessible medium; and d) implement a mechanism to
            monitor compliance to the forma I policy.


Management Response - AGREE
We agree with the recommendation- The Ex-Im Bank will develop a policy based on best practice
in the Government. As more applications are handled online (e.g. insurance), the case file is
related attachments and artifacts are stored in the document management system used by EOL.

The "Working File" policy will be based on the following parameters:

 The National Archives and Records Administration (NARA) define working files as: "rough notes,
calculations, or drafts assembled or created and used to prepare or analyze other documents
(Also called working papers).

Working files are disposable once a document is finalized unless Working Files are Records.

NARA's regulations (36. CFR 1222.34(c)) say that working files are records if:


    1.   They were circulated or made available to employees, other than the creator, for official
         purposes such as approval, comment, action, recommendation, follow-up, or to
         communicate with agency staff about agency business; and


   2.    They contain unique information, such as substantive annotations or comments included
         therein, that adds to a proper understanding of the agency's formulation and execution
         of basic policies, decisions, actions, or responsibilities.
Staff will be provided training to determine which documents in their possession need to be filed
and retained as records, and which documents can be safely recycled or destroyed

Recommendation 7


We recommend that the Executive Vice President and Chief Operating Officer and the Chief
Information Officer:

        3) Collaborate to develop a formally approved robust process for creating a clear and
           comprehensive IT Strategic Plan according to OMB requirements to effectively
           support Ex-Im Bank's mission.


Management Response - AGREE
We agree with this recommendation. The Ex-Im Bank will adhere to using the Capital Planning
and Investment Control (CPIC) process to identify investment initiatives and the COO will provide
timely goals and objectives. The CIO will develop plans and Cost Benefit Analysis and
alternatives and develop a detail IT strategic plan and seek timely approval of plans and funds
them for the effective execution of the IT strategic plan.

Recommendation 8, 9,10


We recommend that the Executive Vice President and Chief Operating Officer and the Chief
Information Officer:

        8) Classify requested and authorized IT funds according to OMB's CIRCULAR A-ll
           definitions on the development and modernization of IT versus the amount being
           spent on operating and maintaining the status quo for IT.

        9) Enhance or replace the AAA system or develop an IT system to provide current
           information on actual versus planned IT spending to ensure the proper management
           of IT operation and maintenance spending and investments.



We recommend that the Executive Vice President and Chief Operating Officer:

        10) Formally direct the CIO on the implementation of the new requirements prescribed in
            OMB's M-ll-29, Chief Information Officer Authorities.


Management Response - AGREE


Management Response 8- We agree with the recommendation. The Ex-Im Bank doubled its
authorizations since 2008 (more transactions, more disbursements, more documents, more data
base support, etc.). This increase of ongoing support and related transactions are NOT Status
quo. They are O&M and "sustain engineering". The Ex-Im Bank uses "Sustain Engineering" for
ongoing required maintenance, refresh and small enhancements for systems. The Ex-Im Bank
uses the term "Investment" for Major system or programmatic changes (It should be noted that
the low end enhancements in OMB are around $5 million dollars). That same definition and
approach is used across the Government, especially by small agencies.

The Ex-Im Bank will make budget estimates and distinction between "Fixes" and "Change
Requests" in the development cycles to capture these differences. The Bank will continue to use
the Government-wide use of the context of the Exhibit 53 and intent of circular A-ll for large
investments. The Bank will ensure the EWG is involved and monitor the "sustain engineering"
tasks as well as the major investments used as part of the Exhibit 53.

Management Response 9- We agree with the recommendation- The CFO and CIO have
established a team to evaluate the enhancement/replacement of AAA with a financial core
(FMLOB) budgeting system. This initiative is included in the OCIO strategic plan and includes a
system capable of tracking planning, obligation, and actual information. Execution of this plan is
dependent on "INVESTMENT" funding being made available for the initiative. Since 2008, this
initiative was being evaluated for funding. Planning, requirement, and alternatives
documentation was prepared. The next step is to update that documentation, attend demos,
and seek budget and resources to pursue this goal.

Management Response 10- We agree with the recommendation- A number of these guidance
and objectives are already in place. The Ex-Im Bank is a small agency and all of IT is managed by
the OCIO.

Plans are to be executed in the next 9 month to transfer email to the cloud. The COOP capability
is already deployed in the cloud and a web site service through the cloud is being reviewed for
security and cost effectiveness.

 Lean and Agile development processes are going to be implemented as part of the investment
fund execution that includes the 'Participant Hub, Working Capital automation, and Forms
 consolidation).

Recommendation 11

We recommend that the Executive Vice President and Chief Operating Officer and the Chief
Information Officer:

        11) Ensure Ex-Im Bank's SDLC process is consistently followed when implementing major
            systems and performing system changes.


Management Response - AGREE
We agree with the recommendation. In addition, the Ex-Im Bank is planning to use the Lean
"Agile Development Methodology" to replace its existing heavy structured SDLC processes to
ensure "delivering meaningful functionality at a faster rate while enhancing the security of
information systems. These additional authorities will enable ClOs to reduce the number of
wasteful duplicative systems, simplify services for the American people, and deliver more
effective IT to support their agency's mission"

Lean Agile principles "promote a development lifecycle that includes frequent inspections with
small incremental tasks; supports collaboration and self-organization; and encourages the fast
delivery of high-quality software." Lean Agile development principles include:

                Individuals and interactions over processes and tools
                Working software over comprehensive documentation
                Customer collaboration over contract negotiation
                Responding to change over following a plan




cc:	   Osvaldo Gratacos, Inspector General
       Alice Albright, Chief Operating Officer
       Michael Cushing, Senior Vice President, Resource Management
       David Sena, Acting Chief Financial Officer and Audit Liaison
       Patricia Wolf, Financial Reporting Supervisor
       John Lowry, Director, Information Technology Security and System Assurance
                                    EXPORT-IMPORT BANK
                                     of the UNITED STATES


January 10, 2012 


MEMORANDUM 


To:               Jean Smith
                  Assistant Inspector General for Audit

From:             Alice Albright
                  Chief Operating Officer


Subject:          Audit of Information Technology Support for Export-Import Bank's Mission
                  (OIG-xx-11-xx, December 16,2011 (Revision) - Response to
                  recommendations.


       We appreciate your providing us with an opportunity to review a draft of the report and
the cooperation and subsequent reviews of the document with your auditors.

       With regard to your memorandum of November 25, 2011, and the revision of the draft
document dated December 16, 2011, following are management's response to five of the
recommendations from the BDO USA, LLP ("BDO") report provided during their audit of the
Information Technology Support for Export-Import Bank's Mission. Management responses to
recommendations 1, 3-6 are included in this letter.

        Management agrees with the recommendations described in the BDO report. The Bank
has submitted requests for funding to upgrade its old custom designed (1990-type) applications
systems and will continue to enhance and improve on its processes and using technology as a
resource multiplying strategy for supporting the expanding mission of the Ex-Im Bank supporting
the National Export Initiative (NEI).

           The following letter addresses the recommendations 1 and 3 to 6.

Recommendation 1


We recommend that the Executive Vice President and Chief Operating Officer:

      1) Have the business owners individually and in aggregate reevaluate their business
         requirements and minimum relevant data necessary to process transactions
         involving complex structures and to monitor business operations. They should
        then work with the Office of Information Technology to initiate, develop, and test
        an integrated application that is aligned with those needs and in support of Ex-Im
        Bank's mission.

Management Response - AGREE
We agree with the recommendation - The Ex-Im Bank has kicked off the first in a series of
processing system projects that are being funded from the IT Investment fund recently made
available. The various project plans, including the Participant Hub, Working Capital automation,
and Forms consolidation, all start with a detailed and thorough review of business requirements
and strategic direction with the business owners. The project plans then establish a Business
Stakeholders Steering Committee and a pool of identified business users who will test and review
any application development. The Business Stakeholders Steering Committee will have final say
on business requirements and on determining whether or not system proposals meet those
requirements.

In particular, one of the business operations with extremely complicated structures,
Transportation Finance, has begun a streamlining/LEAN exercise. This project is targeted to be
completed Summer 2012. As staff has acknowledged that the current processing system is a
mill-stone around their neck, one of the final products to be developed will be a detailed set of
system requirements that support the new business process. These system requirements will be
used in the project plan for "automating" Transportation Finance.

Recommendation 3 - 6


We recommend that the Executive Vice President and Chief Operating Officer:

    3) Implement a bank-wide unique identifier to ensure that all new participants can
       be readily identified and returning participants are associated with their
       historical transactions.

    4) Have the business owners revise the required minimum participant data
       necessary to process an application. Ex-Im Bank should only process applications
       that meet those minimum criteria.

    5) Develop a formal data management policy and procedures to ensure complete
       and accurate participant data is captured in Ex-Im Bank's centralized database
       and define which information is required for reporting purposes. The policy and
       procedures should include, as soon as possible, a clear definition and
       management of participant identification so it can link participants to
       transactions.

    6) Require that the formal data management policy and procedures be a)
       communicated to appropriate Ex-Im Bank employees; b) reviewed annually,
       updated, and re-communicated accordingly; and c) stored in a readily accessible
       medium.
Management Response - AGREE


 Management Response 3 - We agree with the recommendation - Ex-Im Bank has kicked off the
first in a series of processing system projects that are being funded from the IT Investment fund
 recently made available. One project which has already commenced is the Participant Hub
project. One of the business requirements that has already been identified is that there be a
 bank-wide unique identifier to ensure that all new participants can be readily identified and
 returning participants are associated with their historical transactions. The Participant Hub
project plan commenced in November 2011 and is projected to be fully implemented by January
2013. With implementation of the Participant Hub, Ex-Im Bank will have a bank-wide unique
 identifier and processes to ensure that all new participants can be readily identified and
 returning participants are associated with their historical transactions.

 Management Response 4 - We agree with the recommendation - Ex-Im Bank has kicked off the
first in a series of processing system projects that are being funded from the IT Investment fund
 recently made available. There are two projects moving hand-in-glove. They are the Participant
 Hub and Forms Consolidation projects. As part of the business requirements process for each
project, business users are identifying the minimum required participant information for the
 Participant Hub and the minimum required participant (and other) information for processing an
 application. The Participant Hub project plan commenced in November 2011 and is projected to
be fully implemented by January 2013. Meanwhile, the Forms Consolidation project started
December 2011 and is projected to be implemented by March 2012.

 Management Response 5 - We agree with the recommendation- Ex-Im Bank has kicked off the
first in a series of processing system projects that are being funded from the IT Investment fund
 recently made available. One project which has already commenced is the Participant Hub
project. As part of the business requirements process for the project, business users are
 identifying the appropriate policies and procedures that will need to be established to ensure
 complete and accurate data is captured and maintained in the Participant Hub and the
 connected transaction processing systems. The Participant Hub project plan commenced in
 November 2011 and is projected to be fully implemented by January 2013.

Management Response 6 - We agree with the recommendation- One of the benefits that Ex-Im
Bank hopes to achieve from its processing system projects is full documentation of policies and
procedures that will be readily accessible to business users and communicated to the business
users. As the projects progress, documentation will be developed and reviewed by the business
users.

cc:	    Osvaldo Gratacos, Inspector General
        Michael Cushing, Senior Vice President, Resource Management
        David Sena, Acting Chief Financial Officer and Audit Liaison
        Fernanda Young, Chief Information Officer
        Michele Kuester, Vice President, Operations and Data Quality
        Patricia Wolf, Financial Reporting Supervisor
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
